 Pen
   nsion Benefit
         B       Guaran
                      nty Corrporatio
                                    on
      Office
           e of Ins
                  specto
                       or Gen
                            neral
                Aud
                  dit Repo
                         ort




  Report on Internall Contro
                           ols Relatted to th
                                            he
Pension Bennefit Gua
                   aranty Corporat
                           C        tion’s Fis
                                             scal
Year 2012
     2    and 2011 Financia
                   F        al Statem
                                    ments Audit
                                            A




              Novem
                  mber 15, 2012
                                      AUD-2013
                                             3-2/FA-12-88--2
This page intentionally left blank.
This page intentionally left blank.
                 Report on Internal Controls Related to the
                  Pension Benefit Guaranty Corporation’s
              Fiscal Year 2012 and 2011 Financial Statements


                   Audit Report AUD-2013-2 / FA-12-88-2


                                  Contents


Section I:     Independent Auditor’s Report

Section II:    Management Comments


                                  Acronyms

ACL            Access Controls List
A&A            Assessment and Authorization
ASD            Actuarial Services Division
ASCGSS         Agency Security Controls General Support System
BAPD           Benefits Administration and Payment Department
CMS            Case Management System
COTS           Commercial-Off-The Shelf
CCRM           Configuration, Change, and Release Management
CI             Configuration Item
CFS            Consolidated Financial System
COOP           Continuity of Operations Program
CCRD           Contracts and Control Review Department
CAP            Corrective Action Plan
DoPT           Date of Plan Termination
EDM            Enterprise Data Model
ELAN           Enterprise Local Area Network
ETA            Enterprise Target Architecture
FIPS PUB       Federal Information Processing Standards Publication
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FY             Fiscal Year
IPS            Image Processing System
IAH            Information Assurance Handbook
IPVFB          Integrated Present Value of Future Benefits
ISA            Interagency Service Agreement
ISO       Information System Owner
IT        Information Technology
MOU       Memorandum of Understanding
NIST SP   National Institute of Standards and Technology Special Publication
OIG       Office of Inspector General
OIT       Office of Information Technology
OMB       Office of Management and Budget
OPM       Office of Personnel Management
PRISM     Participant Records Information Systems Management
PLUS      Pension and Lump Sum System
PBGC      Pension Benefit Guaranty Corporation
PII       Personally Identifiable Information
POA&M     Plan of Action and Milestones
PAM       Portfolio Accounting and Management
PAS       Premium Accounting System
PPS       Premium and Practitioner System
PVFB      Present Value of Future Benefits
RTM       Requirements Traceability Matrix
TAS       Trust Accounting System
TIS       Trust Interface System
TPD       Trusteeship Processing Division
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2012 and 2011 Financial Statements


    Audit Report AUD-2013-2 / FA-12-88-2




                 Section I

     Independent Auditor’s Report
This page intentionally left blank.
 
                                                                         CliftonLarsonAllen LLP
                                                                         11710 Beltsville Drive, Suite 300
                                                                         Calverton, MD 20705
                                                                         301-931-2050 | fax 301-931-1710
                                                                         www.cliftonlarsonallen.com



                             Pension Benefit Guaranty Corporation


To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC

We have audited the financial statements of the Pension Benefit Guaranty Corporation (PBGC or
the Corporation) as of and for the year ended September 30, 2012, and have examined
management’s assertion included in PBGC’s Annual Report about the effectiveness of the internal
control over financial reporting (including safeguarding assets); and PBGC's compliance with
certain provisions of laws, regulations, and other matters, and have issued our combined report
thereon dated November 14, 2012 (see Office of Inspector General (OIG) report AUD-2013-1/FA-
12-88-1).

We conducted our audit and examination in accordance with auditing standards generally accepted
in the United States of America; Government Auditing Standards, issued by the Comptroller
General of the United States; attestation standards established by the American Institute of
Certified Public Accountants; and Office of Management and Budget (OMB) audit guidance.

The purpose of this report is to provide more detailed discussions of the specifics underlying the
material weaknesses reported in the internal control section of our combined report on PBGC’s
fiscal year (FY) 2012 financial statements. As reported in our combined report on PBGC’s FY 2012
financial statements, we identified certain deficiencies in internal control that we consider material
weaknesses, and other deficiencies that we consider to be a significant deficiency.

Summary

PBGC protects the pensions of approximately 43 million workers and retirees in more than
25 thousand private defined benefit pension plans. Under Title IV of the Employee Retirement
Income Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of
participants in covered private defined benefit pension plans in the United States. To accomplish its
mission and prepare its financial statements, PBGC relies extensively on the effective operation of
the Benefits Administration and Payment Department (BAPD) and information technology (IT).
Internal controls over these operations are essential to ensure the confidentiality, integrity, and
availability of critical data while reducing the risk of errors, fraud, and other illegal acts.

BAPD manages the termination process for defined benefit plans, provides participant services
(including calculation and payment of benefits) for PBGC-trusteed plans, provides actuarial support
for PBGC, and carries out PBGC's responsibilities under settlement agreements. BAPD has several
distinct divisions including Trusteeship Processing Divisions (TPDs) and the Actuarial Services
Division (ASD). The TPDs are responsible for capturing the participant data for benefit
determinations, managing the benefit payments to participants and beneficiaries, and maintaining
the pension plan and participant files that includes underlying documentation used to support the
calculation of benefit amounts for the participant and the pension liabilities recorded on PBGC

                                                  1    
 
 


financial statements. The ASD is responsible for calculating the Present Value of Future Benefits
(PVFB) liability, based on actuarial assumptions and methods. ASD uses the underlying
documentation maintained by the TPDs, as well as mortality tables and interest rate factors, as key
inputs to calculate pension plan liabilities recorded on PBGC’s financial statements.

BAPD continues to have serious control weaknesses throughout the department. These
weaknesses are attributed to BAPD’s management and oversight over the processes needed to
calculate and value participant’s benefits and the related liabilities, as well as to value plan assets.
Such weaknesses increase significant risks to PBGC’s operations including accurate calculation of
plan participants’ benefits, accurate financial reporting, and compliance with prescribed laws and
regulations. In FY 2012 and 2011, PBGC hired a contractor to perform a review of its programs and
activities for improper payments in accordance with the Improper Payment Elimination and
Recovery Act. In addition to identifying that actual improper payments occurred, the contractor
found that the underlying documentation used to support the benefit payments was not always
available. Similar documentation is used to support the actuarial calculations of PBGC pension plan
liabilities and related expenses. During FY 2012, we continued to identify numerous deficiencies in
BAPD controls that included inadequate documentation to support the calculation of participants’
benefits and liabilities, errors in their liability calculations, and errors in valuing plan assets.

The establishment and implementation of the appropriate internal controls are critical to PBGC
operations. Furthermore, reliable internal controls ensure that the programs achieve their intended
results; resources are used consistent with agency mission, programs and resources are protected
from waste, fraud, and mismanagement; laws and regulation are followed; and reliable and timely
information is obtained, maintained, reported and used for decision making as stated in the OMB
Circular A-123, Management’s Responsibility for Internal Control. In order to mitigate operational
and financial reporting risks to PBGC as a whole, active involvement from BAPD’s senior
leadership in the monitoring and response to such risks is warranted on a continuous basis.

In response to weaknesses previously identified above, BAPD continues to undergo a strategic
review with the intention of addressing the organizational structure and operational issues. In
FY 2012, BAPD hired a new Director and continued efforts to develop a plan to address the
deficiencies noted in prior OIG financial statements and performance audit reports. PBGC intends
the plan to focus on fundamental issues such as internal controls, processes, contractor oversight,
training, and staff competencies.

IT continues to be a challenge for management. The safeguarding of PBGC’s systems and data is
essential to protect PBGC’s operations and mission. The OIG and others have consistently
identified serious internal control vulnerabilities and systemic security control weaknesses in the IT
environment over the last several years. PBGC’s delayed progress in mitigating these deficiencies
at the root-cause level continued to pose increasing and substantial risks to PBGC’s ability to carry
out its mission during FY 2012. Due to the persistent nature and extended time required to mitigate
such vulnerabilities, additional risks threaten PBGC’s ability to safeguard its systems. These risks
include technological obsolescence, inability to execute corrective actions, breakdown in
communications, and poor monitoring.

PBGC has made some progress in addressing IT security weaknesses at the root-cause level by
continuing the implementation of its FY 2010 Enterprise Corrective Action Plan (CAP), and
introducing additional reporting controls to track progress. Additional tracking controls include the
Enterprise Plan of Action and Milestones (POA&M) and the Progress Status Reports on corrective
actions. However, the current PBGC corrective action process was disjointed, with stove-piped
responsibilities that did not provide a holistic view to inform key decision makers on progress made

                                                   2    
 
 


and resources needed to complete critical tasks. PBGC is in the process of improving its corrective
action process to be more cohesive where the CAP will inform the POA&M which will, in turn,
provide the Contracts and Control Review Department (CCRD) with the official status of corrective
actions to be included in the Listing of Open OIG Recommendations.

The Corporation has also made progress in addressing the design of its infrastructure, account
management, enterprise security management, and configuration management, but the control
processes have not reached a level of maturity to prove their effectiveness. PBGC is implementing
a disciplined and integrated approach to Configuration, Change, and Release Management
(CCRM) process and procedures consistent with NIST SP 800-53, Rev 3. The Corporation has also
developed and is implementing additional policies and procedures; additional technical and
configuration management tools are also being deployed. However, much remains to be done, and
the pace of progress remains slow.

PBGC anticipated completing the assessment and authorization (A&A) process, formerly referred to
as a certification and accreditation process, on the Corporation’s major applications in FY 2012, but
was unable to complete the process. The work on the A&As that has been performed through
FY 2012 identified significant fundamental security control weaknesses in PBGC’s general support
systems, many of which were reported in prior year’s audits and remain unresolved. We continued
to find deficiencies in the areas of security management, access controls, configuration
management, and segregation of duties. Control deficiencies were also found in policy
administration, and the completion of A&A for all major applications.

PBGC developed an information security policy framework, including the Information Security
Policy which is supported by standards, processes, procedures, and a guide published in June
2012, The Office of Information Technology (OIT) Security Authorization Guide. This Guide
provides steps and templates for use in preparing and completing the Security Authorization and
Assessment process which follows National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-37. Also, the Guide provides a checklist to support OIT’s review of submitted
artifacts as evidence of controls implemented. PBGC is documenting the review process with the
checklist. The new information security policy framework has not reached a level of maturity to
determine its effectiveness. PBGC is still in the process of establishing an enterprise-wide
continuous monitoring program; and deploying additional network management, monitoring and
configuration tools in its environment.

The serious weaknesses in BAPD’s internal controls such as inadequate documentation to support
the benefit and liability calculations, errors in liability calculations and valuing plan assets, as well as
the limited progress of mitigating PBGC’s systemic security control weaknesses create an
environment that could lead to improper application of benefits to plan participations, inaccurate
financial reporting and fraud, waste, and abuse.

Based on our findings, we are reporting that the deficiencies in the following areas constitute three
material weaknesses for FY 2012:

    1. Benefits Administration and Payment Department Management and Oversight
    2. Entity-wide Security Program Planning and Management
    3. Access Controls and Configuration Management




                                                     3    
 
 


We are also reporting the deficiencies in the following area to be a significant deficiency for
FY 2012:

    4. Integrated Financial Management Systems

Detailed findings and recommendations follow.

1. Benefits Administration and Payment Department Management and Oversight

    BAPD is the core department within PBGC to maintain plan and participant information, and to
    calculate plan benefits and related liabilities. BAPD’s management and oversight function is a
    key component of the control environment in which its division managers and staff operates.
    The continuous deficiencies of the aforementioned function increase PBGC’s operational and
    financial reporting risks.

    Calculation of the Present Value of Future Benefits Liability

    During FY 2012, BAPD made errors in calculating the PVFB liability for some participants. ASD
    is primarily responsible for the calculation of the PVFB that is recorded on PBGC’s financial
    statements based on actuarial assumptions and methods. These calculation errors were
    primarily due to two reasons: (1) the actuarial liability factors were applied to incorrect or
    incomplete data inputs and (2) a plan's particular benefit provisions were not sufficiently
    reviewed to correctly calculate individual participants' PVFB liability. Specifically, BAPD’s ASD
    used actuarial assumptions because the best available data was not updated into the applicable
    information system. For example, in some instances an actual date of birth was used to
    calculate a specific benefit but the estimated date of birth was entered in the applicable
    information system causing the liability to be incorrect. In other instances, ASD incorrectly
    calculated certain liabilities of the participants using a single life annuity benefit plan provision
    instead of the joint and survivorship benefit. During our June 30 interim testing, we identified an
    error in the calculation of the participant liability for one large plan related to one of the plan’s
    unique provisions. Management was not aware of this unique plan benefit and that it had been
    inappropriately excluded from the participants’ liability calculations. This error required
    additional efforts by BAPD management to determine the underlying cause and to calculate an
    overall plan adjustment to PBGC’s liability at September 30. Due to these errors noted during
    the interim period, we adjusted our year-end audit procedures to address the increased
    operational and financial reporting risks. Using a statistically based sampling technique, we
    noted approximately 13% of the samples tested in which the liability calculated for a plan
    participant was either overstated or understated. The projected value of the error to the entire
    PVFB liability of approximately $106 billion at September 30, 2012, had an estimated range of
    approximately $507 million understatement to $875 million overstatement and a point estimate
    of $185 million overstatement.

    We also noted deficiencies in BAPD’s maintenance of underlying documentation used to
    support the calculation of the PVFB. BAPD’s TPDs are primarily responsible for maintaining the
    plan and participant files utilized to determine the benefit and liabilities amounts owed to plan
    participants. The information system that maintains the participant documentation such as birth
    certificates, marriage certificates, participant benefit applications, plan provisions, salary data,
    etc., is the Image Processing System (IPS). During our testing at June 30 and September 30,
    BAPD was not able to provide the documentation needed to support liability calculations for
    some samples. We also noted that the documentation was not maintained in a single
    systematic manner and required herculean efforts by BAPD and other PBGC departments to

                                                   4    
 
 


    locate and provide the documentation. The lack of appropriate documentation results in limited
    physical and financial controls, and could lead to improper benefit payment and participant
    liability calculations by PBGC. Consequently, we could not determine whether the benefits or
    the associated liability was calculated properly for those selected samples at June 30 and
    September 30.

    Last year we reported several deficiencies in BAPD related to documentation, including the
    need to require archival of source documents, implementation of controls to ensure monitoring
    and enforcement of procedures requiring document maintenance, and to improve the training of
    persons tasked with calculating and reviewing benefit determinations. These deficiencies have
    not yet been corrected.

    Because of errors in the liability calculations and the lack of supporting documentation, PBGC is
    at risk for inaccurately valuing the plan liabilities reported in its financial statements. Also, these
    deficiencies could impact PBGC management’s ability to provide meaningful and accurate
    information to its key stakeholders such as the plan participants, the Board, Congress, and
    OMB.

       Recommendations:

       o   PBGC should promptly correct the errors in its calculations identified by the auditors.
           (OIG Control Number # FS-12-01)

       o   PBGC should develop and implement a comprehensive documentation retrieval system
           that clearly identifies the location of the participants’ census data and benefit calculation
           elements in a systematic manner. (OIG Control Number # FS-12-02)

       o   PBGC should update the technical reference guide used by ASD to document the
           procedures used to calculate the qualified pre-survivor annuity and deferred retirement
           ages. (OIG Control Number # FS-12-03)

       o   Update current procedures to ensure that all plan provisions are considered in the
           calculation of the individual participant liability. The procedures should be documented in
           a formal procedural manual and/or checklist. (OIG Control Number # FS-12-04)

       o   PBGC should refine their current procedures for processing plans and uploading
           participant data in the Genesis database to ensure that the best available data is used to
           support benefit payments and Integrated Present Value liabilities. (OIG Control Number
           # FS-12-05)

       o   Modify the BAPD Operations Manual to explicitly incorporate policies and procedures to
           archive source records. The BAPD Operations Manual details the process of creating
           the participant database, but does not explicitly require the archival of source records.
           (OIG Control Number # FS-11-10) (PBGC scheduled completion date: June 30,
           2014)

       o   Ensure that adequate documentation is maintained, which supports, substantiates, and
           validates benefit payment calculations by implementing proper monitoring and
           enforcement measures in compliance with approved policies and procedures. (OIG
           Control # FS-11-11) (PBGC scheduled completion date: June 30, 2012)

                                                    5    
 
 


       o   Improve the training of persons tasked with the calculation and review of benefit
           determinations to ensure their skills are matched with the complexities of the tasks
           assigned. (OIG Control # FS-11-12) (PBGC scheduled completion date: December
           31, 2012)

    Valuation of Plan Assets and Benefits

    Although BAPD has undertaken efforts to revalue assets for certain pension plans trusteed by
    PBGC, internal control weaknesses in this area continue to merit focus. The fair market value of
    a pension plan’s assets at the date of plan termination (DoPT) is an essential factor needed to
    determine the retirement benefit amounts owed to plan participants. The lack of BAPD’s
    effective oversight and monitoring of contracted reviews over asset valuations continued to
    pose significant risks to the participants’ benefit determinations. During FY 2012, BAPD hired
    contractors to perform revaluations of plan assets for some large plans which resulted in
    increased benefits owed to certain plan participants. BAPD management stated that a risk
    analysis is currently underway to determine which additional pension plans may have asset
    valuation misstatements and pose the greatest risks to the participants’ benefit payments. This
    risk analysis was not complete at September 30, 2012. In addition, management has yet to
    finalize a quality control review process to verify and validate the satisfactory completion of
    contracted DoPT plan asset valuation audits, and to establish a detailed process to ensure the
    consistent application of a methodology to determine the fair market value of plan assets at
    DoPT at September 30, 2012.

    Additional weaknesses identified as part of the prior year financial statement audit stemmed
    from inadequate management of contractors, a condition that continues to exist. As previously
    discussed, these contractors perform critical functions such as the valuing of plan assets.
    Services provided by contractors should be subject to an effective system of internal controls.
    Management has not always fully considered the exposure and risk that contractors introduce
    into its environment. BAPD intended to develop corrective action plans in FY 2012 to focus on
    fundamental issues such as internal controls, processes, contractor oversight, and training and
    staff competencies. However, the development of these plans was still in progress at
    September 30, 2012.

       Recommendations:

       o   Continue to implement procedures to verify that future contracts for plan asset
           valuations clearly outline expectations and deliverables in the statement of work.
           (OIG Control Number # FS-11-06) (PBGC scheduled completion date: April 30,
           2013)

       o   Continue to develop a quality assurance program aimed to ensure that plan asset
           valuations meet the regulatory standard of determining fair market value based on the
           method that most accurately reflects fair market value. (OIG Control Number # FS-11-
           07) (PBC scheduled completed date: April 30, 2013)

       o   Continue to enhance and formalize efforts to improve staff skills, whether Federal or
           contactor, in planning the valuation reviews, understanding the risks, and developing
           appropriate scopes and procedures to support credible and reliable results.
           (OIG Control Number # FS-11-08) (PBC scheduled completed date: April 30, 2013)



                                                 6    
 
 


        o   Identify those plans that might potentially have a pervasive misstatement to the financial
            statements if DoPT asset values were originally misstated. Management should then re-
            evaluate the DoPT asset values for those identified plans and consider the impact of any
            known differences on the financial statements. (OIG Control Number # FS-11-09) (PBC
            scheduled completed date: December 30, 2012)

2. Entity-wide Security Program Planning and Management

    In prior years, we reported that PBGC’s entity-wide security program lacked focus and a
    coordinated effort to adequately resolve control deficiencies. Deficiencies persisted in FY 2012,
    which prevented PBGC from implementing effective security controls to protect its information
    from unauthorized access, modification, and disclosure. Without a well-designed and fully
    implemented information security management program, there is increased risk that security
    controls are inadequate; responsibilities are unclear, misunderstood, and improperly
    implemented; and controls are inconsistently applied. Such conditions may lead to insufficient
    protection of sensitive or critical resources and disproportionately high expenditures for controls
    over low-risk resources.

    An entity-wide information security management program is the foundation of a security control
    structure and a reflection of senior management’s commitment to addressing security risks. The
    security management program should establish a framework and a continuous cycle of activity
    for assessing risk, developing and implementing effective security procedures, and monitoring
    the effectiveness of these procedures.

    In the Federal Information Security Management Act of 2002, Congress required each federal
    agency to establish an agency-wide information security program to provide security to the
    information and information systems that support the operations and assets of the agency,
    including those managed by a contractor or other agency. OMB Circular No. A-130, Appendix
    III, Security of Federal Automated Information Resources, requires agencies to implement and
    maintain a program to assure that adequate security is provided for all agency information
    collected processed, transmitted, stored, or disseminated in general support systems and major
    applications.

    The specific weaknesses we found that contributed to the material weakness and our
    recommendations to correct them are as follows:

       PBGC had not completed A&As for any major applications. However, PBGC continued to
        improve the PBGC Enterprise Information Security Program which includes strengthening
        the system authorization process, verifying contractor A&A deliverables, and ensuring their
        quality and conformance to the statement of work as well as to the objectives of the PBGC
        risk management process and NIST SP 800-53. PBGC has focused on updating the
        underlying policies, strengthening the security program overall, obtaining quality contractors
        to conduct the assessments, and ensuring PBGC prepare for and begin the execution of the
        system authorization process.

       NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
        identifies 172 controls within 17 security control families. PBGC identified 130 of these
        controls as their common security controls. While PBGC has stated they anticipate
        completion of their corrective actions in early 2015, as of the end of FY 2012, they have not



                                                  7    
 
 


        documented the details of the specific actions needed to complete and confirm the design,
        implementation, and operating effectiveness of these identified common security controls.

       Weaknesses in PBGC’s infrastructure design and deployment strategy for systems and
        applications adversely affected its ability to effectively implement common security controls
        across its systems and applications. Without full development and implementation, security
        controls are inadequate; responsibilities are unclear, misunderstood, and improperly
        implemented; and controls are inconsistently applied. Such conditions lead to insufficient
        protection of sensitive or critical resources or disproportionately high expenditures for
        controls. PBGC realizes these challenges, and has identified and documented the
        enterprise common security controls in the Agency Security Controls General Support
        System (ASCGSS) System Security Plan. PBGC completed and approved the Infrastructure
        Configuration Management Plan in FY 2012. The Corporation also approved its CCRM
        process and procedures in FY 2012. The future implementation of these strategies is
        designed to enable PBGC to implement a disciplined and integrated approach to CCRM,
        eliminate inconsistencies and weaknesses in the implementation of the processes and
        procedures and ensure compliance with the NIST SP 800-53, Rev 3 common controls.
        However PBGC had not completed and confirmed the implementation, and operating
        effectiveness of its common security controls; management cannot have confidence that the
        controls were implemented.

        Recommendations:

        o   Effectively communicate to key decision makers the state of PBGC’s IT infrastructure
            and environment to facilitate the prioritization of resources to address fundamental
            weaknesses. (OIG Control # FS-09-01) (PBGC scheduled completion date: June 30,
            2013)

        o   Document and execute the details of the specific actions needed to complete and
            confirm the design, implementation, and operating effectiveness of all 130 identified
            common security controls. (OIG Control # FS-08-01) (PBGC scheduled completion
            date: February 28, 2015)

        o   Develop a process to review and validate reported progress on the implementation of
            the common security controls. Implement a strategy to test and document the
            effectiveness of each new control implemented. (OIG Control # FS-09-02) (PBGC
            scheduled completion date: September 30, 2012)

        o   Develop and implement a well-designed security management program that will provide
            security to the information and information systems that support the operations and
            assets of the Corporation, including those managed by contractors or other federal
            agencies. (OIG Control # FS-09-03) (PBGC scheduled completion date: September
            30, 2012)

        o   Complete the development and implementation of the redesign of PBGC’s IT
            infrastructure; and the procurement and implementation of technologies to support a
            more coherent approach to providing information services and information system
            management controls. (OIG Control # FS-09-04) (PBGC scheduled completion date:
            February 28, 2015)



                                                  8    
 
 


        o   Implement an effective review process to validate the completion of the A&A packages
            for all major applications. The review should not be performed by an individual
            associated with the performance of the A&A, or by someone who could influence the
            results. This review should be completed for all components of the work performed to
            ensure substantial documentation is available that supports and validates the results
            obtained. (OIG Control # FS-08-02) (PBGC scheduled completion date: June 30,
            2013)

        o   Ensure that adequate documentation is maintained which supports, substantiates, and
            validates all results and conclusions reached in the A&A process for all major
            applications. (OIG Control # FS-09-05) (PBGC scheduled completion date:
            September 30, 2012)

        o   Establish and implement comprehensive procedures and document the roles and
            responsibilities that ensure oversight and accountability in the A&A review process for
            major applications. Retain evidence of oversight reviews and take action to address
            erroneous or unsupported reports of progress. (OIG Control # FS-09-06) (PBGC
            scheduled completion date: September 30, 2012)

        o   Maintain an accurate and authoritative inventory list of major applications and general
            support systems. Ensure the list is disseminated to responsible staff and used
            consistently throughout PBGC OIT operations. (OIG Control # FS-09-07) (PBGC
            scheduled completion date: September 30, 2012)

        o   Implement an independent and effective review process to validate the completion of the
            A&A packages for all major applications. (OIG Control # FS-08-03) (PBGC scheduled
            completion date: June 30, 2013)

        o   Implement a documented, independent and effective review process to validate the
            completion of the A&A packages for general support systems hosted on behalf of PBGC
            by third party processors. The effective review should include examining host and
            general controls risk assessments. (OIG Control # FS-08-03) (PBGC scheduled
            completion date: September 30, 2012)

       Information security policies and procedures were not fully disseminated and implemented.
        PBGC is not able to effectively enforce compliance for all needed security awareness
        training. PBGC published SE-PRC-01-01, Security Awareness and Training Procedures, in
        June 2012. It defines both annual security awareness requirements and role-based
        requirements. Security incident response training is still in development and will be delivered
        during FY 2013 for all staff involved in security incident management and response. PBGC
        is in its second year of providing an online information security awareness module supplied
        by an OMB-approved Information System Security Line of Business provider (OPM’s Go
        Learn Learning Management System platform). This enables more efficient tracking of staff
        and contractors who have taken the module. PBGC fulfilled last year’s requirement for
        general security awareness training using this service. Role-based training for security is still
        in the development stage. Lack of security awareness can lead to increased risk of security
        breaches and exposure to fraud. Controls may not be placed in operation as mandated by
        PBGC policies.




                                                   9    
 
 


        Recommendation:

        o   Continue to disseminate the awareness of PBGC’s security policies and procedures
            through adequate training. (OIG Control # FS-07-04) (PBGC scheduled completion
            date: September 30, 2012)

       PBGC has not executed ISAs or MOUs between all external organizations whose systems
        interconnect with PBGC’s systems. Controls to require such agreements do not exist. PBGC
        is in the process of planning and documenting ISAs with all external organizations’ systems.
        In the absence of an ISA and MOU, either party (PBGC or external system owner) may be
        unfamiliar with the technical requirements of the interconnection and the details that may be
        required to provide overall security for systems that are interconnected.

        Recommendation:

        o   Develop controls and implement an ISA or MOU with all external organizations whose
            systems connect to PBGC’s systems. (OIG Control # FS-10-03) (PBGC scheduled
            completion date: September 30, 2012)

3. Access Controls and Configuration Management

    Although access controls and configuration management controls are an integral part of an
    effective information security management program, access controls remain a systemic problem
    throughout PBGC. PBGC’s decentralized approach to system development, system
    deployments, and configuration management created an environment that lacks a cohesive
    structure in which to implement controls and best practices. Weaknesses in the IT environment
    contributed significantly to deficiencies in system configuration, segregation of duties, role-
    based access controls, and monitoring. PBGC realizes these challenges, and is implementing a
    disciplined and integrated approach through development of Configuration, Change, and
    Release Management (CCRM) Process & Procedures consistent with NIST SP 800-53, Rev 3.
    The Corporation has also developed and is implementing additional policies and procedures,
    including deploying technical and configuration management tools. Technical tools have been
    or are being deployed to better manage configuration of common operating platforms. Once
    these tools are fully operational in the infrastructure, they will help ensure that controls related to
    the configuration of infrastructure components remain consistent and provide alerting
    capabilities when components are changed. Other complementary processes, such as the Tiger
    Team focus on system scanning and vulnerability management, support PBGC’s capability to
    carefully document and validate system vulnerabilities and also provide evidence as to the
    operating effectiveness of some technical common controls.

    Access controls should be in place to consistently limit and detect inappropriate access to
    computer resources (data, equipment, and facilities); and monitor access to computer
    programs, data, equipment, and facilities. These controls protect against unauthorized
    modification, disclosure, loss, or impairment. Such controls include both logical and physical
    security controls to ensure that federal employees and contractors will be given only the access
    privileges necessary to perform business functions. Federal Information Processing Standards
    Publication (FIPS PUB) 200, Minimum Security Requirements for Federal Information and
    Information Systems, specifies minimum access controls for federal systems. FIPS PUB 200
    requires PBGC’s information system owners to limit information system access to authorized
    users.


                                                    10    
 
 


    Industry best practices, NIST SP 800-64, Security Considerations in the System Development
    Life Cycle, and other federal guidance recognize the importance of configuration management
    when developing and maintaining a system or network. Through configuration management, the
    composition of a system is formally defined and tracked to ensure that an unauthorized change
    is not introduced. Changes to an information system can have a significant impact on the
    security of the system. Documenting information system changes and assessing the potential
    impact on the security of the system, on an ongoing basis, is an essential aspect of maintaining
    the security posture. An effective entity-wide configuration management and control policy, and
    associated procedures, are essential to ensuring adequate consideration of the potential
    security impact of specific changes to an information system. Configuration management and
    control procedures are critical to establishing an initial baseline of hardware, software, and
    firmware components for the entity, and subsequently controlling and maintaining an accurate
    inventory of any changes to the system.

    Inappropriate access and configuration management controls do not provide PBGC with
    sufficient assurance that financial information and financial assets are adequately safeguarded
    from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or destruction.

    The specific weaknesses we identified in prior years that contributed to the material weakness
    identified in FY 2012 and our recommendations to correct them are as follows:

       PBGC’s configuration management controls are labor intensive and ineffective.
        Weaknesses in the design of PBGC’s infrastructure and deployment strategy for systems
        and applications created an environment where strong technical controls and best practices
        cannot be effectively implemented. Configuration management controls are therefore
        inconsistently implemented across PBGC’s general support systems. PBGC’s three IT
        environments (development, test, and production) do not share common server
        configurations; therefore, management cannot rely on results obtained in the development
        or test environments prior to deployment in production. Overall, the PBGC environment
        suffers from inadequate configuration, roles, privileges, logging, monitoring, file permissions,
        and operating system access.

       PBGC’s infrastructure does not adequately segregate the production, development and
        testing environments. The current environment does not provide adequate controls in which
        to implement an effective application development and change control program. Significant
        weaknesses in configuration management noted in prior years and continuing throughout
        FY 2012, included the following:

        -   Sensitive program scripts and utilities, open directories, and unsafe service accounts
            were not restricted.
        -   Unnecessary network services and duplicate groups with privileged system access were
            not removed.
        -   Baseline security reports were not being created and reviewed.
        -   Ownership of critical files, directories, and permissions were inappropriately configured.
        -   The root account could be logged into from multiple virtual consoles.
        -   The database replication from headquarters to the COOP installation is lacking in
            functionality and completeness, and would require a significant amount of subject matter
            expert manual intervention to failback to headquarters in the event of an actual system
            failure.
        -   Developers had access to sensitive information in production.


                                                  11    
 
 


        -   The IT system life cycle methodology is not consistently implemented across all projects
            within PBGC. We reviewed the Product Quality Assurance audit summary of the HP
            Service Manager 7 software implementation and noted that various critical components
            were lacking such as:
            o Weaknesses noted in the approval, configuration management and change control
                processes.
            o Failure to obtain approval signatures on key documents and test artifacts.
            o Incomplete Requirements Traceability Matrix (RTM).
            o Failure to update the RTM resulting in lack of traceability between the requirements
                and the test cases.
            o Lack of evidence that key test activities were conducted in the test environment as
                planned.
        -   Back out plans for reversing system changes, in case of an unexpected situation, are
            not consistently documented.

            PBGC recognized that the agency lacked a mechanism for controlling the flow of data
            between the development, test and production environments. PBGC plans to implement
            firewalls with associated policies and business rules to control the information flows
            between environments. The Corporation developed a high-level conceptual design for
            segregating the environments, the solution was accepted and procurement was issued
            for hardware and services that will segregate the environments

            In the interim, PBGC implemented the Access Control Lists (ACLs) that will act as static
            firewalls until the comprehensive solution is fully implemented. The ACLs are intended to
            control the flow of data between environments and stop any new flows from starting
            unless there is an approved change request.

       PBGC has made improvement in developing baseline configuration management controls.
        PBGC began implementing its CCRM process, procedures and diagrams in FY 2012,
        establishing the guidance for how Configuration Items (CIs) are identified and baselines
        established, how CI changes are controlled (Change Management) and managed through
        environments (Release Management), and how CIs and baselines are verified and audited
        using status accounting. The Change Management processes, procedures and diagrams
        provide the governance structure as to which CI changes are authorized to be promoted
        through various environments. The Corporation is in the process of deploying and/or
        procuring automated tools to facilitate the execution of Configuration Management activities
        with a specific emphasis in applying controls to authentication parameters to PBGC General
        Support Systems and allowing for the manual review of noted deviations from baseline
        settings. The tools will provide the capability to establish a baseline of CIs that exist at
        PBGC and also the ability to monitor compliance with the configuration management
        controls in an automated manner.

       Controls are not in place to ensure adequate consideration of the potential security impacts
        due to specific changes to an information system or its surrounding environment. PBGC is
        exposed to increased risk of data modification or deletion. Unauthorized changes could
        occur undetected. Applications and critical business processes may not be restored in a
        timely manner in the event of a disaster.




                                                 12    
 
 


        Recommendations:

        o   Develop and implement procedures and processes for the consistent implementation of
            common configuration management controls to minimize security weaknesses in
            general support systems. (OIG Control # FS-07-07) (PBGC scheduled completion
            date: October 31, 2013)

        o   Develop and implement a coherent strategy for correcting IT infrastructure deficiencies
            and a framework for implementing common security controls, and mitigating the
            systemic issues related to access control by strengthening system configurations and
            user account management for all of PBGC’s information systems. (OIG Control # FS-
            09-12) (PBGC scheduled completion date: October 31, 2013)

        o   Establish baseline configuration standards for all of PBGC’s systems. (OIG Control #
            FS-09-13) (PBGC scheduled completion date: October 31, 2013)

        o   Review configuration settings and document any discrepancies from the PBGC
            configuration baseline. Develop and implement corrective actions for systems that do
            not meet PBGC’s configuration standards. (OIG Control # FS-09-14) (PBGC
            scheduled completion date: October 31, 2013)

        o   Ensure test, development and production databases are appropriately segregated to
            protect sensitive information, and fully utilized to increase system performance. (OIG
            Control # FS-09-15) (PBGC scheduled completion date: October 31, 2013)

        o   Establish interim procedures to implement available compensating controls (such as
            establishing a test team to verify developer changes in production) until a
            comprehensive solution to adequately segregate test, development and production
            databases can be implemented. (OIG Control # FS-09-16) (PBGC scheduled
            completion date: October 31, 2013)

       PBGC’s policies and practices have not effectively restricted the addition of unnecessary
        and generic accounts to systems in production. Consequently, the number of unnecessary
        and generic accounts grew over the years. Furthermore, PBGC’s configuration
        management weaknesses have contributed significantly to its inability to effectively
        implement controls to ensure the consistent removal and locking out of generic or dormant
        accounts. PBGC has made progress in the recertification and dormant Account Process.
        However, not all major systems have gone through the recertification process such as those
        in the Benefits Administration and Payment Department. Furthermore, the actual removal of
        dormant accounts from systems is still a manual process and remains a risk to the
        timeliness of effective removal. The lack of controls to remove/disable inactive accounts and
        dormant accounts exposes PBGC’s systems to exploitation and compromise. PBGC has
        taken action to review generic accounts in the general support system, removing those that
        are unnecessary, and approving those that are necessary; however, more work is needed to
        ensure that all unnecessary and generic accounts are removed. Failure to identify and
        remove unnecessary accounts from the system could result in PBGC’s systems being at an
        increased risk for unauthorized access, modification, or deletion of sensitive system and/or
        participant information.




                                                 13    
 
 


        Recommendations:

        o   Continue to remove unnecessary user and generic accounts. (OIG Control # FS-07-08)
            (PBGC scheduled completion date: July 31, 2012)

        o   Assess the risk associated with the lack of segregation of duties, password
            management, and overall inadequate system configuration. Discuss risk with system
            owners and implement compensating controls wherever possible. If compensating
            controls cannot be implemented the system owner should sign-off indicating risk
            acceptance. (OIG Control # FS-09-17) (PBGC scheduled completion date: February
            15, 2013)

        o   For the remaining systems, apply controls to remove/disable inactive and dormant
            accounts after a specified period in accordance with the IAH. (OIG Control # FS-07-12)
            (PBGC scheduled completion date: July 31, 2012)

       Some developers have access to the production environment, which exposes PBGC to the
        risk of unauthorized modification of the application, the circumvention of critical controls, and
        unnecessary access to sensitive data. Weaknesses in the design of PBGC’s infrastructure
        and deployment strategy for legacy systems and applications created an environment where
        developers have unrestricted access to production. PBGC has identified the developers who
        have access to particular production assets, and removed unnecessary developer access to
        production. Service Desk tickets were submitted to re-establish necessary developer access
        along with associated necessary Risk Acceptance forms. The Corporation now has
        mechanisms in place within the automated Enterprise Local Area Network (eLAN) process
        and records to document development team members’ access. There is now a better
        understanding of risks associated with developers’ access to production to ensure access is
        evaluated before granting. All developers’ access to production has not been eliminated;
        PBGC is in the process of implementing compensating controls to restrict developer’s
        access to production. However, PBGC has not fully resolved infrastructure design issues. In
        the interim, PBGC implemented ACLs that will act as static firewalls until the comprehensive
        solution is fully implemented.

        Failure to appropriately restrict privileged access to the production environment could result
        in unauthorized access/modification/deletion of sensitive system and/or participant
        information, and the release of harmful codes into the production environment.

        Recommendation:

        o   Appropriately restrict developers’ access to production environment to only temporary
            emergency access. (OIG Control # FS-07-10) (PBGC scheduled completion date:
            December 31, 2012)

       Controls are not consistently applied to ensure that authentication parameters for general
        support systems (e.g. Novell, Windows, SUN Solaris, Oracle, etc.) and applications comply
        with the Information Assurance Handbook (IAH). PBGC’s decentralized approach to system
        development and configuration management has made it particularly difficult to implement
        consistent technical controls across PBGC’s many systems, platforms, and applications.




                                                   14    
 
 


        Failure to follow secure build standards and reassign or remove unowned user files provides
        internal and external attackers additional paths into PBGC’s systems and could result in an
        increased risk of unauthorized access, modification, or deletion of sensitive system and
        participant information.

        Recommendations:

        o   Consistently apply controls to ensure that authentication parameters for PBGC’s general
            support systems (e.g. Novell, Windows, Sun Solaris, Oracle, etc.) and applications
            comply with the IAH. (OIG Control # FS-07-11) (PBGC scheduled completion date:
            July 31, 2014)

        o   Implement a manual review process whereby OIT periodically reviews systems for
            compliance with baseline settings. (OIG Control # FS-09-19) (PBGC scheduled
            completion date: October 31, 2013)

       The OIT recertification process remains incomplete and does not include all user and
        system accounts. In addition, the Recertification of User Access Process, version 4.0, does
        not explicitly state that all accounts (e.g. user, system, and service) across all platforms and
        applications will be recertified annually. PBGC’s infrastructure design and configuration
        management weaknesses have contributed significantly to its inability to effectively
        implement controls to recertify all user and system accounts. The recertification process is
        still undergoing changes to ensure all major information systems are reviewed. PBGC
        implemented an automated eLAN workflow process at the end of FY 2011, which provided
        another way for PBGC’s customers to interact with the Service Desk and submit network
        and application services (eLAN) access requests. Effective May 1, 2012, PBGC required
        that users discontinue submitting paper eLAN forms and instead use the automated system,
        except in situations where the automated system does not accommodate a user’s unique
        and specific access request due to services and functions that aren’t available in PBGC’s
        current Service Catalog. In those cases, the Service Desk is prepared to assist the user with
        the completion of the paper eLAN until the automated system can be modified. Current
        plans are to incorporate additional workflow modifications, to eliminate the need for any
        paper forms, into a planned Service Manager, version 7 to version 9 migration which is
        scheduled for FY 2013.

        Unauthorized users could gain access to PBGC’s data and personally identifiable
        information. Without periodic recertification of accounts (user, generic, service and system)
        management does not have adequate assurance that only current authorized users have
        access to PBGC resources.

        Recommendation:

        o   Complete the implementation of the recertification process for all user and system
            accounts. Continue to perform annual recertification and include all PBGC’s accounts
            (e.g. user, generic, service, and systems accounts) for general support systems and
            major applications. (OIG Control # FS-07-13) (PBGC scheduled completion date:
            July 31, 2013)

       Vulnerabilities found in key databases and applications include weaknesses in
        configuration, roles, privileges, auditing, file permissions, and operating system access.
        These PBGC system vulnerabilities are caused by an ineffective deployment strategy in the

                                                  15    
 
 


        development, test, and production environments. Ineffective system deployments have
        resulted in an environment that is in disarray. PBGC has deployed additional technical tools
        to address this weakness, but requires additional cycle time to determine effectiveness.

        Security control weaknesses and vulnerabilities in key databases remain unresolved. These
        control weaknesses are scheduled to be corrected in 2013. These weaknesses expose
        PBGC to increased risk of data modification or deletion. Unauthorized changes could occur
        and not be detected.

        Recommendations:

        o   Implement controls to remedy vulnerabilities noted in key databases and applications
            such as weaknesses in configuration, roles, privileges, auditing, file permissions, and
            operating system access. (OIG Control # FS-07-14) (PBGC scheduled completion
            date: October 31, 2013)

        o   Implement controls to remedy weaknesses in the deployment of servers, applications,
            and databases in the development, test, and production environments. (OIG Control #
            FS-09-20) (PBGC scheduled completion date: October 1, 2014)

       Periodic logging and monitoring of security-related events for PBGC’s applications were
        inadequate for CFS, Premium Accounting System (PAS), Trust Accounting System (TAS),
        Participant Records Information Systems Management (PRISM), and Integrated Present
        Value of Future Benefits (IPVFB) systems. PBGC’s IT infrastructure consists of multiple
        legacy systems and applications (e.g. PAS, TAS, IPVFB, PRISM, etc.) that do not have a
        coherent architecture for management and security.

        Controls are not in place to ensure adequate consideration of the potential security impacts
        due to specific changes to an information system or its surrounding environment. PBGC is
        exposed to increased risk of data modification or deletion. Unauthorized changes could
        occur, undetected.

        Recommendation:

        o   Implement a logging and monitoring process for application security-related events and
            critical system modifications (e.g. CFS, PAS, TAS, PRISM, and IPVFB). (OIG Control #
            FS-07-17) (PBGC scheduled completion date: April 30, 2013)

       The application virtualization/application delivery product used by PBGC’s benefit payments
        service provider to connect to its benefit payments system, PLUS, is not included in the
        system boundary when conducting the A&A for the PLUS application. There is no
        documented security plan, risk assessment, security controls testing and continuous
        monitoring program for the application virtualization/application delivery product.

       Privileged TeamConnect group accounts use shared accounts to grant access to users. The
        activity by these privileged users cannot be tracked and/or traced to an individual user.
        Additionally, TeamConnect developers have access to both the development and
        production system. Malicious changes could be made without detection.




                                                 16    
 
 


        Recommendations:

        o   Include the application virtualization/application delivery product used by the benefit
            payments service provider to access the PLUS application in the system boundary. (OIG
            Control # FS-10-05) (PBGC scheduled completion date: TBD)

        o   Establish unique accounts for each user in TeamConnect. (OIG Control # FS-11-02)
            (PBGC scheduled completion date: TBD)

        o   Restrict developer’s access to production. (OIG Control # FS-11-03) (PBGC scheduled
            completion date: September 30, 2012)

        o   Implement a log review process that does not rely on the TeamConnect’s developers
            reviewing the logs. (OIG Control # FS-11-04) (PBGC scheduled completion date:
            TBD)

        o   Implement compensating controls for log and review of changes made by powerful
            shared accounts. (OIG Control # FS-11-05) (PBGC scheduled completion date: TBD)

4. Integrated Financial Management Systems

    The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
    single integrated financial management system. The current system cannot be readily accessed
    and used by financial and program managers without extensive manipulation, excessive manual
    processing, and inefficient balancing of reports to reconcile disbursements, collections, and
    general ledger data.

    OMB Circular A-127, Financial Management Systems, requires that federal financial
    management systems be designed to provide for effective and efficient interrelationships
    between software, hardware, personnel, procedures, controls, and data contained within the
    systems. The Circular states:

        A financial system, hereafter referred to as a core financial system, is an information system
        that may perform all financial functions including general ledger management, funds
        management, payment management, receivable management, and cost management. The
        core financial system is the system of record that maintains all transactions resulting from
        financial events. It may be integrated through a common database or interfaced
        electronically to meet defined data and processing requirements. The core financial system
        is specifically used for collecting, processing, maintaining, transmitting, and reporting data
        regarding financial events. Other uses include supporting financial planning, budgeting
        activities, and preparing financial statements. Any data transfers to the core financial system
        must be: traceable to the transaction source; posted to the core financial system in
        accordance with applicable guidance from the Federal Accounting Standards Advisory
        Board; and in the data format of the core financial system.

    OMB’s Office of Federal Financial Management, Core Financial System Requirements, lists the
    following financial management system performance goals, outlined in the framework
    document, applicable to all financial management systems. All financial management systems
    must do the following:

       Demonstrate compliance with accounting standards and requirements.

                                                  17    
 
 


       Provide timely, reliable, and complete financial management information for decision making
        at all levels of government.

       Meet downstream information and reporting requirements with transaction processing data
        linked to transaction engines.

       Accept standard information integration and electronic data to and from other internal,
        government-wide, or private-sector processing environments.

       Provide for “one-time” data entry and reuse of transaction data to support downstream
        integration, interfacing, or business and reporting requirements.

       Build security, internal controls, and accountability into processes and provide an audit trail.

       Be modular in design and built with reusability as an objective.

       Meet the needs for greater transparency and ready sharing of information.

       Scale to meet internal and external operational, reporting, and information requirements for
        both small and large entities.

    Because PBGC has not fully integrated its financial systems, PBGC’s ability to accurately and
    efficiently accumulate and summarize information required for internal and external financial
    reporting is impacted. Many of the weaknesses included in this report were reported in prior
    years. The specific weaknesses we found that contributed to the material weakness and our
    recommendations to correct them are as follows:

    Lack of standard data classifications and common data elements:

       PBGC continues to work towards a logical database model (Enterprise Data Model (EDM)).
        Elements of the EDM include the general ledger, purchases, portfolio management, payroll,
        investment management, financial institutions, budgeting, accounts receivable, and
        accounts payable. Until the development and implementation of the EDM is complete, the
        current systems have no centralized data catalog defining data elements or a common data
        access method available for current databases.

       The current decentralized database structure may lead to erroneous financial and
        participant data. For example, the same data elements are required to be reformatted or are
        used for different purposes across PBGC's various applications.

       The current decentralized database structure may lead to the use of outdated financial or
        participant data. Because participant data must be reformatted and distributed to multiple
        PBGC systems, users may be relying on outdated information to make business decisions.

    Duplication of transaction entry:

       Probable and multiemployer plan data initially entered into IPVFB must be manually
        re-entered into a spreadsheet and then manually entered into CFS as adjusting journal
        entries.


                                                   18    
 
 


       Plan data initially entered into the Case Management System (CMS) application must be re-
        entered into the TAS application's portfolio header.

       Plan contingency listings are determined using data extracted from PAS. However, plans
        with multiple filings must be manually aggregated before the plans can be classified.

       Plan sponsor data address information must be manually entered into CFS to process
        refunds.

    Obsolete and antiquated technologies:

    PBGC’s information systems employ obsolete and antiquated technologies that pose additional
    risk to the availability of financially significant systems. These technologies are unsupported and
    add to the challenges to integrate PBGC’s systems in an IT infrastructure that lacks a cohesive
    architecture and design.

    A federal agency’s ability to effectively and efficiently maintain and modernize its existing IT
    environment depends primarily on how well it employs certain IT management controls that are
    embodied in statutory requirements, federal guidance, and best practices. Among other things,
    these controls include strategic planning and performance measurement, portfolio-based
    investment management, human capital management, enterprise architecture (and supporting
    segment architecture) development and use, and responsibility and accountability for
    modernization management.

    If managed effectively, IT investments can have a dramatic impact on an organization’s
    performance and accountability. If not correctly managed, they can result in wasteful spending
    and lost opportunities for achieving mission goals and improving mission performance. PBGC
    had several false starts in modernizing its systems and applications that have either been
    abandoned (such as the suspension of work on the Premium and Practitioner System to replace
    PAS) or have been ineffective in leading to the integration of its financially significant systems.
    Unless PBGC develops and implements a well designed IT architecture and infrastructure to
    guide and constrain modernization projects, it risks investing time and resources in systems that
    do not reflect the Corporation’s priorities, are not well integrated, are potentially duplicative, and
    do not optimally support mission operations and performance.

    To its credit, PBGC began to develop an overall strategy, but much work remains before the
    strategy can be completed and implemented. Steps PBGC has taken in FY 2012 include the
    following:

       Continued work on its Enterprise Target Architecture (ETA), which provides the road map
        for all PBGC system development and integration, including financial management system
        integration.

       Implemented interface enhancements for CFS, including the payroll interface modernization,
        procurement interface, travel interface, and invoice automation. These interfaces provide
        additional automated capabilities for CFS and reduce the amount of manual data inputs for
        certain transactions.

    However, major work remains to be completed to provide PBGC with integrated financial
    management capabilities. PBGC plans to implement the Trust Accounting and FY File System


                                                   19    
 
 


    (TAS) in January 2013, after completing the TAS user acceptance testing. The design of TAS is
    based on an externally-hosted, commercial-off-the-shelf investment accounting package. TAS is
    another step closer to financial management systems integration, as it replaces Portfolio
    Accounting and Management (PAM), TIS, and FY File. TAS will replace the following existing
    financial applications: PAM, FY File, Trust Interface System (TIS), and TIS Transfer.
    Additionally, TAS will have automated interfaces with the CMS, CFS, and IPVFB. Lastly, PBGC
    has identified future capabilities in its financial management to-be architecture including a
    procurement system and an online budgeting system.

    PBGC's IT initiatives include further corrective actions through the implementation of TAS and
    the Premium and Practitioner System (PPS). Also during FY 2012, PBGC began the
    development of PPS. PPS will be fully integrated with the Oracle eBusiness Suite COTS
    solution used for PBGC's Consolidated Financial Systems, and will replace the PAS in
    December 2013.

       Recommendation:

       o   PBGC needs to implement and execute a plan to integrate its financial management
           systems in accordance with OMB Circular A-127. (OIG Control # FS-07-18) (PBGC
           scheduled completion date: September 30, 2013)

                                   ***********************************

The internal control report recommendations status is presented in Exhibit I.

This report is intended for the information and use of the management and Inspector General of
PBGC and is not intended to be and should not be used by anyone other than these specified
parties.



a
Calverton, Maryland
November 14, 2012




                                                   20    
 
 


               EXHIBIT I - Status of Internal Control Report Recommendations

Prior Year Internal Control Report Recommendation Closed For FY 2012:

Recommendation                Date Closed                  Original Report Number

FS-07-09                      11/13/2012                   2008-2/FA-0034-2
FS-07-15                      11/13/2012                   2008-2/FA-0034-2
FS-07-16                      11/13/2012                   2008-2/FA-0034-2
FS-09-08                      11/13/2012                   AUD-2010-2/FA-09-64-2
FS-09-10                      11/13/2012                   AUD-2010-2/FA-09-64-2
FS-09-18                      11/13/2012                   AUD-2010-2/FA-09-64-2
FS-10-01                      11/13/2012                   AUD-2011-3/FA-10-69-2
FS-10-02                      11/13/2012                   AUD-2011-3/FA-10-69-2
FS-10-04                      11/13/2012                   AUD-2011-3/FA-10-69-2
FS-11-01                      11/13/2012                   AUD-2012-2/FA-11-82-2
FS-11-13                      11/13/2012                   AUD-2012-2/FA-11-82-2
FS-11-14                      11/13/2012                   AUD-2012-2/FA-11-82-2
FS-11-15                      11/13/2012                   AUD-2012-2/FA-11-82-2
FS-11-17                      11/13/2012                   AUD-2012-2/FA-11-82-2

Prior Year Internal Control Report Recommendation Moved to Management Letter
During FY 2012:

Recommendation                              Original Report Number

FS-11-16                                    AUD-2012-2/FA-11-82-2

Open Recommendations as of September 30, 2012:

Recommendation                              Report

Prior Years'
FS-07-04                                    2008-2/FA-0034-2
FS-07-07                                    2008-2/FA-0034-2
FS-07-08                                    2008-2/FA-0034-2
FS-07-10                                    2008-2/FA-0034-2
FS-07-11                                    2008-2/FA-0034-2
FS-07-12                                    2008-2/FA-0034-2
FS-07-13                                    2008-2/FA-0034-2
FS-07-14                                    2008-2/FA-0034-2
FS-07-17                                    2008-2/FA-0034-2
FS-07-18                                    2008-2/FA-0034-2
FS-08-01                                    AUD-2009-2/FA-08-49-2
FS-08-02                                    AUD-2009-2/FA-08-49-2
FS-08-03                                    AUD-2009-2/FA-08-49-2
FS-08-03                                    AUD-2009-2/FA-08-49-2
FS-09-01                                    AUD-2010-2/FA-09-64-2
FS-09-02                                    AUD-2010-2/FA-09-64-2

                                            21    
 
 


Recommendation                              Report

FS-09-03                                    AUD-2010-2/FA-09-64-2
FS-09-04                                    AUD-2010-2/FA-09-64-2
FS-09-05                                    AUD-2010-2/FA-09-64-2
FS-09-06                                    AUD-2010-2/FA-09-64-2
FS-09-07                                    AUD-2010-2/FA-09-64-2
FS-09-09 1                                  AUD-2010-2/FA-09-64-2
FS-09-11 1                                  AUD-2010-2/FA-09-64-2
FS-09-12                                    AUD-2010-2/FA-09-64-2
FS-09-13                                    AUD-2010-2/FA-09-64-2
FS-09-14                                    AUD-2010-2/FA-09-64-2
FS-09-15                                    AUD-2010-2/FA-09-64-2
FS-09-16                                    AUD-2010-2/FA-09-64-2
FS-09-17                                    AUD-2010-2/FA-09-64-2
FS-09-19                                    AUD-2010-2/FA-09-64-2
FS-09-20                                    AUD-2010-2/FA-09-64-2
FS-10-03                                    AUD-2011-3/FA-10-69-2
FS-10-05                                    AUD-2011-3/FA-10-69-2
FS-11-02                                    AUD-2012-2/FA-11-82-2
FS-11-03                                    AUD-2012-2/FA-11-82-2
FS-11-04                                    AUD-2012-2/FA-11-82-2
FS-11-05                                    AUD-2012-2/FA-11-82-2
FS-11-06                                    AUD-2012-2/FA-11-82-2
FS-11-07                                    AUD-2012-2/FA-11-82-2
FS-11-08                                    AUD-2012-2/FA-11-82-2
FS-11-09                                    AUD-2012-2/FA-11-82-2
FS-11-10                                    AUD-2012-2/FA-11-82-2
FS-11-11                                    AUD-2012-2/FA-11-82-2
FS-11-12                                    AUD-2012-2/FA-11-82-2
FY Ended September 30, 2012
FS-12-01                                    AUD-2013-2/FA-12-88-2
FS-12-02                                    AUD-2013-2/FA-12-88-2
FS-12-03                                    AUD-2013-2/FA-12-88-2
FS-12-04                                    AUD-2013-2/FA-12-88-2
FS-12-05                                    AUD-2013-2/FA-12-88-2
1
    Recommendation remains open pending completion by management to acknowledge closure.
     This recommendation was not included in the FY 2012 financial report.




                                            22    
 
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2012 and 2011 Financial Statements


    Audit Report AUD-2013-2 / FA-12-88-2




                 Section II

        Management Comments
This page intentionally left blank.
This page intentionally left blank.
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
